                                   SOCIAL SECURITY
MEMORANDUM

Date:   February 15, 2011                                            Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Impact of Alien Nonpayment Provisions on Field Offices Along the Mexican Border
        (A-08-10-20140)


        The attached final report presents the results of our review. Our objective was to
        assess the impact of the alien nonpayment provisions on Social Security Administration
        field offices along the Mexican border.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                       Patrick P. O’Carroll, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    IMPACT OF ALIEN NONPAYMENT
     PROVISIONS ON FIELD OFFICES
     ALONG THE MEXICAN BORDER


     February 2011   A-08-10-20140




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:   February 15, 2011                                                             Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Impact of Alien Nonpayment Provisions on Field Offices Along the Mexican Border
        (A-08-10-20140)


        OBJECTIVE

        Our objective was to assess the impact of the alien nonpayment provisions (ANP) on
        Social Security Administration (SSA) field offices along the Mexican border.

        BACKGROUND
        Section 202(t) of the Social Security Act (42 U.S.C. § 402[t]), states that noncitizens will
        not be paid Old-Age, Survivors and Disability Insurance benefits when they have been
        outside the United States more than 6 months. This provision attempts to avoid paying
        benefits to ANP beneficiaries1 residing in another country who have little or no
        connection to the United States and were not dependent on the numberholder for their
        livelihoods while he or she was working.2 However, there are several exceptions to this
        rule, and, in practice, citizens of many countries are able to meet one or more of those
        exceptions.3 For example, the ANP does not apply if nonpayment would be contrary to
        a U.S. treaty obligation or to individuals who are residents of a country with which the
        United States has an international Social Security agreement (such as beneficiaries
        residing in Canada with which the United States has a totalization agreement).4 A

        1
         For purposes of this report, we use the term “ANP beneficiaries” to refer to dependents and survivors
        who are subject to the ANP under Title II of the Social Security Act.
        2
            ANP is effective for individuals who initially become eligible for benefits after December 31, 1984.
        3
            20 C.F.R. § 404.460, Nonpayment of Monthly Benefits of Aliens Outside the United States.
        4
         International Social Security agreements, often called “totalization agreements,” have two main
        purposes. First, they eliminate dual Social Security taxation, the situation that occurs when a worker from
        one country works in another country and is required to pay Social Security taxes to both countries on the
        same earnings. Second, the agreements help fill gaps in benefit protection between the United States
        and another country. U.S. International Social Security Agreements,
        http://www.ssa.gov/international/agreements_overview.html (last visited October 25, 2010).
Page 2 - The Commissioner


beneficiary who does not meet an exception to the ANP becomes subject to
nonpayment after being outside the United States for 6 full calendar months. However,
if the beneficiary establishes presence in the United States before 30 consecutive days
elapse, the 6-month period will never begin, and payment can continue indefinitely.

An ANP beneficiary has several options to establish physical presence in the
United States: (1) stay 1 full calendar month inside the United States after a 6-month
period of absence, (2) spend 30 consecutive days in the United States before the
6 months elapse, or (3) enter the United States for any part of 1 day before 30 days
elapse.5 For purposes of this report, we focused on ANP beneficiaries who visit the
United States once in the 30-day period to establish presence. Although ANP
beneficiaries worldwide can routinely visit the United States to establish presence,
residents of Mexico are best suited geographically to take advantage of this provision.
As such, some field offices along the Mexican border experience high traffic volume
from ANP beneficiaries.

Although the Social Security Act only requires that ANP beneficiaries periodically return
to the United States (touch U.S. soil), they generally visit a field office to establish
presence in the United States.6 The process for establishing presence takes about
5 minutes, excluding the beneficiary’s waiting time at the field office. Generally, once
per month (before the 30 consecutive days elapse), ANP beneficiaries visit an SSA field
office and present an acceptable identification document (photograph identification,
such as voter card, passport, or visa). Field office personnel document their visit and
schedule the date of the next visit.

To accomplish our objective, we reviewed SSA policies and procedures regarding ANP
and interviewed representatives from SSA’s Offices of International Programs and the
Chief Information Officer. We visited four field offices along the Mexican border in
California and Texas that were among the top offices in terms of ANP beneficiaries.
Appendix B includes a detailed description of our scope and methodology.




5
    SSA, Program Operations Manual System, RS 02610.020.
6
  Although ANP beneficiaries are not required to visit a field office to establish U.S. presence, many do so
to document their visit and ensure their benefits are not interrupted.
Page 3 - The Commissioner


RESULTS OF REVIEW
While we recognize current law requires that ANP beneficiaries routinely visit the
United States to maintain their benefits, we believe this practice has a significant impact
on some field offices along the Mexican border. For example, we found that over
1,000 ANP beneficiaries visit some field offices monthly to establish presence in the
United States. Providing services to such a large volume of beneficiaries increases
workload; adds to wait times; and, during high traffic days, results in some office space
issues. Furthermore, field office personnel at each office we visited told us the number
of ANP beneficiaries is increasing. For these reasons, some field office personnel we
interviewed questioned the need for ANP beneficiaries to routinely visit field offices.

Requiring routine visits to the United States also places a burden on ANP beneficiaries.
For example, we learned that some beneficiaries travel great distances and incur
significant personal costs to establish presence in the United States. In addition, if
beneficiaries miss a visit before the 30 days elapse, regardless of the circumstances,
they must stay in the United States for 30 consecutive days, which would begin a new
6-month period, to continue their benefits. This can cause a significant hardship on
some ANP beneficiaries because they must find a place to live and pay their own
expenses for 30 consecutive days.

We believe SSA can reduce field office workload and improve customer service by
considering alternatives to ANP beneficiaries routinely visiting field offices to establish
presence in the United States. For example, SSA could explore the use of biometric
technology to verify the identity of these beneficiaries. SSA could place such
technology in strategic locations at or near the border. In fact, SSA recently formed an
Identity at the Border Workgroup to study how SSA could use biometric readers that
scan digital fingerprints to verify identity. Alternatively, SSA could work with the
Department of Homeland Security (DHS) to verify the identity of ANP beneficiaries at
border crossings. Although DHS provides such services at two of the ports of entry we
visited, field office personnel described the arrangements as informal local agreements
and acknowledged they do not monitor the process. If SSA is unable to work with DHS
to verify the identity of ANP beneficiaries, SSA could also consider placing field office
personnel at the border to do so.

While we recognize that each alternative would still require that ANP beneficiaries
routinely travel to the United States, we believe such alternatives would reduce field
office traffic and enhance customer service, while maintaining program integrity.
Because the subject of this report involves possible policy changes for DHS, we plan to
share a copy of this report with DHS’ Inspector General.
Page 4 - The Commissioner


IMPACT ON SSA FIELD OFFICES

Although law requires that ANP beneficiaries routinely visit the United States to maintain
their benefits, we believe this practice has a substantial impact on some field offices
along the Mexican border. For example, as shown in Table 1, 3 of the 4 field offices we
visited provided services to about 1,000 ANP beneficiaries monthly. The remaining field
office (Laredo) averaged 417 ANP beneficiaries per month. However, DHS routinely
verified the identities of an additional 344 (on average) beneficiaries at the border on
behalf of this field office. As such, without DHS assistance, this field office would
provide services to about 761 beneficiaries monthly, which would increase the
percentage of monthly ANP beneficiaries to 12 percent of the office’s total visitors.

                           Table 1: Monthly ANP Beneficiaries at Selected
                               Field Offices Along the Mexican Border
                                     Average Number of         Average Number of       Percent of
                                      Monthly Visitors           Monthly ANP          Monthly ANP
            Field Office              (All Categories)           Beneficiaries        Beneficiaries
    El Centro, California                   6,721                    1,116                17
    El Paso, Texas (Downtown)               7,762                    1,0657               14
    Chula Vista, California                 7,453                     989                 13
    Laredo, Texas                           6,272                     417                   7

Personnel at each field office we visited told us the number of ANP beneficiaries is
increasing.8 Staff attributed the increase to 1) ANP beneficiaries telling other individuals
about Title II benefits; 2) Mexican consulate officials informing auxiliary beneficiaries
about the availability of such benefits; and 3) survivor claims increasing due to recent
violence in Mexico.

Field office personnel with whom we spoke acknowledged that ANP beneficiaries have
a substantial impact on field office operations. Staff told us that providing services to
such beneficiaries increases field office workloads and wait times. For example,
personnel at 1 field office stated their daily customer-to-interviewer ratio averaged
28 to 1 (in their highest month it averaged 35 to 1) compared to the national average of
17 to 1. In addition, during high traffic days, some field offices experience space issues
because there are more visitors than office space. As a result, some beneficiaries must
wait in lines before entering the building.




7
  DHS verifies the identity of an additional 100 (on average) ANP beneficiaries at the border each month.
Without DHS assistance, this field office would provide services to 1,165 ANP beneficiaries, which would
increase the percentage to 15 percent.
8
    Field office personnel could not readily provide the extent of the increase.
Page 5 - The Commissioner


IMPACT ON ALIEN NONPAYMENT BENEFICIARIES

Requiring routine visits to the United States also places a significant burden on ANP
beneficiaries. For example, we learned that some beneficiaries travel great distances
and incur significant personal costs to establish presence in the United States. Field
office personnel with whom we spoke told us that although many ANP beneficiaries live
near the border, others travel hundreds of miles to reach the border. Staff stated that
once beneficiaries reach the border, it could take them an additional 1 to 2 hours to
clear customs and cross the border. Because SSA field offices are generally not
located at the border crossing, ANP beneficiaries must then drive, take public
transportation, or walk to the nearest field office.

Field office personnel expressed particular concern for elderly and disabled ANP
beneficiaries. For example, personnel at one field office told us some elderly
beneficiaries routinely travel on buses for hours and then walk blocks (some with canes
and walkers) in extreme heat to reach the field office. Personnel also stated they
routinely verify between 20 and 30 disabled beneficiaries in the field office parking lot
each month because their medical condition prevents them from entering the building.

Because some ANP beneficiaries are elderly or disabled and others become ill, they
could miss their once-every-30-days field office visit. However, if a beneficiary misses
his/her visit, regardless of the circumstances, they must stay 30 consecutive days to
start a new 6-month period to continue their benefits.9 This can cause a significant
hardship for some beneficiaries because they must find a place to live and pay their
own expenses for that time. In fact, to prevent such a situation, field office staff told us
one beneficiary was released prematurely from the hospital so she would not miss her
once-every-30-days field office visit. In addition, field office personnel told us that
children often have to miss school so they can meet their U.S. presence requirement.

OPPORTUNITIES FOR SSA TO REDUCE FIELD OFFICE WORKLOAD
AND IMPROVE CUSTOMER SERVICE

We believe SSA has an opportunity to reduce field office workload and improve
customer service by considering alternatives to ANP beneficiaries’ visiting field offices to
establish presence in the United States. We recognize potential alternatives could
require changes to existing SSA and DHS policies and procedures. However, we
believe such changes should not detract SSA from exploring alternatives that would
reduce field office workload and improve customer service.

One alternative could include SSA’s use of biometric technology to support the ANP
verification process. In fact, the Commissioner recently asked the Chief Information
Officer to form an Identity at the Border Workgroup to study how SSA could use
biometric readers (see Figure 1) that scan digital fingerprints to verify ANP beneficiaries’
routine visits to the United States. According to officials in the Office of Innovation, SSA

9
 SSA allows ANP beneficiaries 5 months to meet the full calendar month requirement before the Agency
stops benefit payments.
Page 6 - The Commissioner


(through DHS) would fingerprint all ANP beneficiaries to establish their identity. Once
fingerprinted, beneficiaries could visit a biometric reader instead of visiting a field office
to establish presence in the United States.

SSA plans to work with the US-VISIT10 program to evaluate how and where the Agency
can install biometric readers to be most effective. We believe SSA could place such
readers in strategic locations at or near the border. While we recognize that ANP
beneficiaries would still have to travel routinely to the United States, we believe using
biometric technology would reduce field office traffic and enhance customer service
while maintaining program integrity.

                              Figure1: Example of Biometric Reader




Another alternative could include that SSA work with DHS to verify the identity of ANP
beneficiaries at the border. In fact, SSA has informal local arrangements with DHS to
verify the identities of these beneficiaries at two of the four field offices we visited.
When ANP beneficiaries visit the border each month,11 they provide DHS staff their
names and Social Security numbers and an acceptable identity document (photograph
identification, such as voter card, passport, or visa). After verifying the beneficiary’s
identity, DHS stamps a verification form and sends it to the local field office. Field office
personnel stated that because DHS has to establish identity for all individuals, it only
takes border personnel a few more seconds to stamp another document.

DHS personnel at one port of entry we visited told us they neither consider verifying the
identity of ANP beneficiaries an additional burden nor believe it results in significant lost
work hours. However, DHS personnel at another port of entry only verify about
100 ANP beneficiaries each month because of workload issues. Although DHS officials

10
   US-VISIT supports DHS’ mission by providing biometric identification services to Federal, State, and
local government decision-makers to help them accurately identify the people they encounter and
determine whether those people pose a risk to the United States. US-VISIT’s most visible service is the
collection of biometrics (digital fingerprints and a photograph) from international travelers at U.S. visa
issuing posts and ports of entry. US-Visit, http://www.dhs.gov/files/programs/usv.shtm (last visited
October 25, 2010).
11
  Because the port of entry never closes, ANP beneficiaries can establish presence in the United States
any time, including holidays and weekends.
Page 7 - The Commissioner


with whom we spoke did not have any concerns with the verification arrangement at this
port of entry, field office personnel told us the new local Director of Bridges recently
ended the arrangement. However, contrary to this statement, we determined that DHS
personnel were still verifying the identities of ANP beneficiaries at one bridge.

Field office personnel told us that allowing DHS to verify the identities of ANP
beneficiaries at the border reduces field office traffic and allows staff to provide services
to other individuals more timely. Staff also stated that such assistance improves
customer service, because it enables beneficiaries to establish U.S. presence at their
convenience and prevents additional transportation costs. Field office personnel also
acknowledged that allowing ANP beneficiaries to visit the border (touch U.S. soil)
satisfies the U.S. presence requirement. In addition, staff told us they depend on DHS
to provide accurate information and do not monitor DHS verification procedures. In fact,
personnel at one field office told us they believe DHS personnel are better trained to
identify fraudulent documents and establish identity. Nevertheless, because SSA does
not monitor such activity, it has no assurance that DHS personnel are complying with
SSA policies and procedures.

To ensure consistency, we believe SSA should consider developing model language for
field offices to use when establishing agreements with DHS. Once implemented, field
office personnel should monitor the identity verification process to ensure DHS
personnel are complying with SSA policies and procedures. We recognize that DHS
might charge SSA to provide verification services at some (or all) ports of entry. As
such, SSA should determine on a case-by-case basis whether paying DHS is
cost-effective. However, if SSA is unable to work with DHS, we believe the Agency
should consider placing field office personnel at the border. Depending on the traffic
volume at each port of entry, SSA could choose to place staff at the border during
specific days and times.

CONCLUSION AND RECOMMENDATIONS
Although we recognize current law requires that ANP beneficiaries routinely establish
presence in the United States, we question whether visiting a field office is necessary.
This practice not only increases workload at some field offices along the Mexican
border, but it also places a hardship on many beneficiaries. Unless SSA implements
alternative ways for ANP beneficiaries to establish U.S. presence, field offices and
beneficiaries will continue to be impacted. Given the expected increase in the number
of ANP beneficiaries, we believe SSA would benefit by implementing alternatives to
address this issue.
Page 8 - The Commissioner


Accordingly, we recommend that SSA:

1. Continue to explore ways the Agency can use biometric technology to verify ANP
   beneficiaries’ routine visits to the United States.

2. Continue to work with DHS to verify the identities of ANP beneficiaries at the border.
   To ensure consistency, we believe SSA should consider developing model language
   for field offices to use when establishing agreements with DHS. Once implemented,
   field office personnel should monitor the identity verification process to ensure that
   DHS personnel are complying with SSA policies and procedures.

3. Consider placing field office personnel at the border to verify the identities of ANP
   beneficiaries if the Agency is unable to establish agreements with DHS.

AGENCY COMMENTS AND OIG RESPONSE
We believe SSA’s response and planned actions adequately address
Recommendations 1 and 2. Although SSA disagreed with Recommendation 3, we
believe the Agency considered our recommendation, but stated it did not want to place
SSA employees in situations that could compromise their safety. We acknowledge
SSA’s concern and believe its planned actions for Recommendations 1 and 2—and its
consideration of Recommendation 3—adequately address the issues raised in this
report. The full text of SSA’s comments is included in Appendix C.

OTHER MATTERS
During our discussions with field office personnel, they told us that SSA Headquarters
sends an annual Foreign Enforcement Questionnaire (Form SSA-7162) in English to
ANP beneficiaries. Because many of these beneficiaries cannot read English, they
must visit a field office for translation services, which adds additional work for staff.
Field office personnel suggested that SSA write such questionnaires in Spanish, thus
reducing the need for some ANP beneficiaries to visit a field office.




                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                           Appendix A

Acronyms
ANP      Alien Nonpayment Provision
C.F.R.   Code of Federal Regulations
DHS      Department of Homeland Security
OIG      Office of the Inspector General
SSA      Social Security Administration
U.S.C.   United States Code
                                                                         Appendix B

Scope and Methodology
To accomplish our objective, we:

   Reviewed applicable Federal laws, regulations, and Social Security Administration
    (SSA) policies and procedures regarding the alien nonpayment provisions (ANP).

   Interviewed representatives from SSA’s Offices of International Programs and the
    Chief Information Officer.

   Contacted representatives from SSA’s regional offices in Dallas, Texas, and
    San Francisco, California, to obtain a list of field offices along the Mexican border.

   Visited four SSA field offices in California and Texas. We visited these offices
    because they were among the top offices in terms of ANP beneficiaries and because
    of their location along the Mexican border. At each office, we interviewed
    management and staff about their policies and procedures and experiences working
    with ANP beneficiaries.

   Obtained statistics on the number of monthly visitors (all categories) and ANP
    beneficiaries at selected field offices from January to April 2010.

Our review of internal controls was limited to gaining an understanding of SSA’s policies
and procedures regarding the ANP. The data were sufficiently reliable to meet our audit
objectives. The SSA entity reviewed was the Office of International Policy. We
conducted our work from March through September 2010 in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objective.
                  Appendix C

Agency Comments
                                                Social Security
MEMORANDUM


Date:   January 14, 2011                                                       Refer To: S1J-3

To:     Patrick P. O’Carroll, Jr.
        Inspector General

From:   Dean S. Landis /s/
        Deputy Chief of Staff

Subject: Office of the Inspector General (OIG) Draft Report, “Impact of Alien Nonpayment Provisions on
        Field Offices Along the Mexican Border” (A-08-10-20140)--INFORMATION


        Thank you for the opportunity to review the draft report. Attached is our response.

        Please let me know if we can be of further assistance. You may direct staff inquiries to
        Rebecca Tothero, Acting Director, Audit Management and Liaison Staff, at (410) 966-6975.

        Attachment




                                                       C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “IMPACT OF ALIEN NONPAYMENT PROVISIONS ON FIELD OFFICES
ALONG THE MEXICAN BORDER” (A-08-10-20140)

Thank you for the opportunity to review the subject report. We offer the following responses to
your recommendations and the suggestion you provide under “Other Matter.”

Recommendation 1

Continue to explore ways the Agency may use biometric technology to verify alien nonpayment
(ANP) beneficiaries’ routine visits to the United States.

Comment

We agree. We have designated our Chief Information Officer (CIO) to lead a Biometric Identity
Proofing (BIP) Workgroup that will collaborate with the Department of Homeland Security
(DHS) to explore biometric technology options. We will work with US-VISIT, a DHS
organization that provides biometric identification services, to develop pilot projects that help us
identify the best approaches for servicing ANP beneficiaries.

Recommendation 2
Continue to work with DHS to verify the identities of ANP beneficiaries at the border. To
ensure consistency, we believe the Social Security Administration (SSA) should consider
developing model language for field offices to use when establishing agreements with DHS.
Once implemented, field office personnel should monitor the identity verification process to
ensure that DHS personnel are complying with SSA policies and procedures.

Comment
We agree that our BIP Workgroup should continue to work with DHS. Where we have
partnerships with DHS, we will develop formal interagency agreements that document both
agencies’ roles and responsibilities, including any funding requirements. We will also establish
a process to monitor DHS compliance with the provisions of the interagency agreements.

Recommendation 3

Consider placing field office personnel at the border to verify the identities of ANP beneficiaries
if the Agency is unable to establish agreements with DHS.

Comment

We disagree. Border security is one of DHS’ primary missions. DHS has the resources to carry
out that responsibility and it provides specialized training to its employees for that purpose. We
do not. Since dangerous incidents often occur along our border with Mexico, we cannot place
our employees in situations that may compromise their safety.



                                                C-2
Other Matter

Consider providing the annual Foreign Enforcement Questionnaire (SSA Form 7162) to ANP
beneficiaries in Spanish, thus reducing the need for some ANP beneficiaries having to visit a
field office for translation services.

Comment

We acknowledge that we only send the Foreign Enforcement Questionnaires (SSA Forms 7161
and 7162) in English. However, we also send along with the forms detailed instructions for
completing them in 10 different languages, one of them being Spanish. We base the language of
the instructions on the country or region where we send the forms for completion.




                                              C-3
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly Byrd, Director

   Jeff Pounds, Audit Manager

Acknowledgments

In addition to those named above:

   Kozette Todd, Senior Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-08-10-20140.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
